No. 19-238
IN THE SUPREME COURT OF THE UNITED STATES

In Re Hotze Health Wellness Center
International One, LLC, et al.,
Petitioners,
ON PETITION FOR A WRIT OF
MANDAMUS TO THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
CALIFORNIA
BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF MANDAMUS

Daniel Cooper
Cal. Bar No. 153576
Counsel of Record
1004B O'Reilly Avenue
San Francisco, CA 94129
Email: daniel@cooperlewandmartin.com
T: (415) 360-2962

Jason R. Flanders
Cal. Bar. No. 238007
Counsel (Supreme Court
Bar Admission Pending
8/30/2019)
490 43rd Street, Suite 108
Oakland, CA 94609
Email: jrfigatalawgroup.com
T: (916) 202-3018

Counsel for Environmental Research Center

ENVIRONMENTAL RESEARCH CENTER’S
BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF MANDAMUS
Respondent Environmental Research Center
respectfully requests that the instant Petition for
Writ of Mandamus be denied. Petitioners here seek a
common law writ of mandate as codified at 28 U.S.C.
section 1651(a), which this Court has described as “a
‘drastic and extraordinary’ remedy ‘reserved for
really extraordinary causes.’” Cheney u. United
States Dist. Court for D.C., 542 U.S. 367, 380 (2004).
Such a writ may only be issued if the petitioner’s
“right to issuance of the writ is ‘clear and
indisputable.’” Id. at 381. Here, Petitioners fail to
carry this extraordinary burden. Petitioners’ request
is plainly contrary to federal statute and Supreme
Court precedent and should be denied.
In this case, Petitioners sought to remove the
state law claims of Environmental Research Center
to federal court. Plaintiff Environmental Research
Center moved to remand the case to state court on
the basis that it lacked injury in fact for Article III
standing, which is not required for Environmental
Research Center to pursue its state law claims in
state court. The federal removal statute requires:
“[i]f at any time before final judgment it appears that
the district court lacks subject matter jurisdiction,
the case shall be remanded.” 28 U.S.C. § 1447(c)
(emphasis added). The District Court granted the
remand motion, finding a lack of subject matter
1

jurisdiction, because “[t]he defendants have not
shown that Environmental Research Center would
have Article III standing to pursue their Proposition
65 action in federal court.” Envtl. Res. Ctr., Inc. v.
Hotze Health & Wellness Ctr. Int’l One, L.L.C., No.
18-17463 (9th Cir. Mar. 21, 2019); Petitioner’s Petition
for Writ of Mandamus at App. 2a-3a.
That order was not appealable, and is not
re viewable by writ of mandamus, or otherwise,
because the federal removal statute plainly states
that: “An order remanding a case to the State
court from which it was removed is not reviewable on
appeal or otherwise, except that an order remanding
a case to the State court from which it was removed
pursuant to section 1442 or 1443 of this title shall be
reviewable by appeal or otherwise.” 28 U.S.C. §
1447(d). The Supreme Court in Thermtron Products
v. Hermansdorfer confirmed that this statutory
prohibition on appellate review applies “whether
review is sought by appeal or by extraordinary writ.”
(1976) 423 U.S. 336, 343 (‘Thermatron”), superseded
in part by statutory amendment not relevant here;
see, Powerex Corp. v. Reliant Energy Serus. (2007)
551 U.S. 224, 230 (under “Thermtron the remand is
immunized from review only if it was based on a lack
of subject-matter jurisdiction.”) Thus, by statute and
Supreme Court precedent, a remand order based on
a lack of federal jurisdiction is not reviewable by
appeal, a petition for writ, or otherwise.
2

Such is the case at hand. The District Court
expressly stated that remand was required due to an
absence of “Article III standing.” Pet. for Writ of
Mand. at App. 2a-3a. That order is thus “immunized
from review” by statute and Powerex. The Circuit
Court of Appeals, therefore, did not err in dismissing
Petitioners’ appeal. On September 10, 2019, the
Circuit Court of Appeals also denied Petitioner’s
motion for reconsideration and motion for rehearing
en banc. Appendix at la.
Where plaintiff in the underlying action
alleges no injury in fact, the District Court ruled that
the plaintiff has no Article III standing and
remanded on that basis, and statute and Supreme
Court precedent state that a remand order for a lack
of jurisdiction is unreviewable by appeal or
mandamus, Petitioners have failed to carry their
extraordinary burden to show any right or error that
is clear and indisputable, and the Petition for Writ of
Mandamus should be denied.
Ill
III
III
III
III
III
III
III
III
III

3

Respectfully submitted,
September 20, 2019
COOPER & LEWAND-MARTIN, INC.
/s/ Daniel G. Cooper
1004B O’Reilly Ave.
San Francisco, CA 94129
(415) 360-2962
daniel@cooperlewand-martin.com
Counsel for Respondent
Environmental Research Center

4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED SEP 10 2019
MOLLY C. DWYER,
CLERK U.S. COURT OF APPEALS
Case No. 18-17463
D.C. No. 3:18-cv-05538-VC
Northern District of California, San Francisco
ENVIRONMENTAL RESEARCH CENTER, INC.,
Plaintiff-Appellee,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, individually and
ALLEGEDLY DOING BUSINESS AS HOTZE VITAMINS; et al.,
Defendants-Appellants.
ORDER
Before: SILVERMAN, TALLMAN, and MURGUIA,
Circuit Judges.
Appellants have filed a combined motion for
reconsideration and motion for reconsideration en banc
and a related notice of supplemental authority (Docket
Entry Nos. 11, 12).
The motion for reconsideration is denied (Docket
Entry No. 11) and the motion for reconsideration en
banc (Docket Entry Nos. 11, 12) is denied on behalf of
the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord.
6.11.
la

No further filings will be entertained in this
closed case.
sz/MOATT

2a

